Department of Homeland Security
   Ofﬁce of Inspector General

                      Letter Report:

        Review of Customs and Border Protection’s
       Certification of Automated Targeting System–
                  Passenger Enhancements




OIG-09-44                                       March 2009
                                                                  Office of Inspector General

                                                                  U.S. Department of Homeland Security
                                                                  Washington, DC 20528




                                           March 23, 2009


MEMORANDUM FOR: 	                 The Honorable Elaine C. Duke
                                  Under Secretary for Management


FROM: 	                           Richard L. Skinner
                                  Inspector General

SUBJECT: 	                        Letter Report: Review of Customs and Border Protection’s
                                  Certification of Automated Targeting System–Passenger
                                  Enhancements (OIG-09-44)

We reviewed the certification by Customs and Border Protection (CBP) pertaining to
enhancements of the Automated Targeting System-Passenger (ATS-P) according to
congressional requirements for the FY 2009 funding for such enhancements.1 CBP’s
certification is to describe how ATS-P enhancements will improve targeting while fully
complying with statutory requirements for handling and securing personal data.
Congress requires CBP to certify that such enhancements comply with all applicable
laws, including privacy-protection laws, and that the Office of Inspector General (OIG)
review the certification.

We are unable to determine whether CBP properly certified the proposed ATS-P
enhancements based on the limited information CBP provided for our review. CBP did
not provide sufficient information about the enhancements or the applicable statutory
requirements to enable us to determine whether the proposed enhancements comply with
the requirements for handling and securing personal data. Information that would have
aided in our review includes documents such as a current risk assessment, security testing
and evaluation plan, or a draft, revised privacy impact assessment (PIA). These
documents would have provided an additional level of assurance that CBP is fully
considering the impact of the proposed enhancements.

However, after reviewing CBP’s Operational Program Enhancements Plan, the controls
outlined in the August 2007 PIA, and the additional supporting documentation provided,

1
 Consolidated Security, Disaster Assistance, and Continuing Appropriations Act, 2009, P.L. 110-329,
September 30, 2008; Explanatory Statement, 154 Cong. Rec. H9434, H9741, 9794 (daily ed.,
September 24, 2008); House Committee Report 110-862, p. 28, 30, 37.


                                                   1

we do not foresee any significant risks to the personal data being collected and stored
within ATS-P brought about by the proposed system enhancements. Additionally, in
October 2007, we reported that system controls and internal processes were in place to
protect personally identifiable information maintained in the ATS-P database.2

We are not making any recommendations in this report. Should you have any questions,
please call me, or your staff may contact Frank Deffer, Assistant Inspector General,
Information Technology Audit, at (202) 254-4100.

Background

The Automated Targeting System (ATS) is the cornerstone for all CBP targeting efforts.
ATS-P, one of the databases that make up ATS, is deployed at all ports-of-entry (air,
ship, and rail) and has been used in evaluating (“targeting”) passengers before they arrive
in the U.S. since 1999. ATS-P contains most of the personally identifiable information
(PII) stored in ATS and used in CBP’s targeting efforts.3 PII is collected directly from
commercial carriers in the form of a passenger name record, which is then used to target
suspicious individuals.4 ATS-P also maintains various real-time information from other
CBP systems and law enforcement databases.

The Department of Homeland Security (DHS) has a duty to protect PII from loss and
misuse. The loss or compromise of ATS data can have severe consequences, affecting
national security, U.S. citizens, and the department’s missions. There is substantial
public and foreign interest in DHS’ collection and use of ATS data and the potential
privacy implications in the event of disclosure. The privacy implications include:

    •    Potential threats to personal information during transmission.
    •    Violations of passenger rights.
    •    Unauthorized access to PII stored within ATS, especially ATS-P.
    •    Personal identity theft.

Reporting Requirements

Pursuant to congressional requirements accompanying the FY 2009 Consolidated
Security, Disaster Assistance, and Continuing Appropriations Act, the OIG must review
CBP’s certification of the proposed ATS-P enhancements and report on it to the


2
  OIG-08-06, Better Administration of Automated Targeting System Controls Can Further Protect
Personally Identifiable Information (October 2007).
3
  PII includes information about an individual’s education, financial transactions, medical history, criminal
or employment history, and other information that can be used to distinguish or trace an individual’s
identity, such as their name, Social Security number, date and place of birth, mother’s maiden name, and
biometric records, including fingerprints.
4
  Passenger name records contain a significant amount of data about passengers and crew members entering
or departing the U.S., including an individual’s name, address, dates of travel, contact information, frequent
flier and benefit information, all available payment and billing information, travel itinerary, ticketing
information, baggage information, passenger and crew manifests, and immigration control information.


                                                      2

Appropriations Committees.5 Before FY 2009 appropriated funds are obligated for any
ATS-P enhancements, Congress requires CBP to certify that such enhancements comply
with all applicable laws, including privacy protection laws, and that the OIG reviewed its
certification.6

Our conclusion was based on a review of information provided by CBP with its
certification letter. Although CBP certified that proposed enhancements would comply
will all applicable privacy laws, it did not certify whether the enhancements would
comply with all laws, not just privacy laws, as required. Further, we were not provided
with sufficient information to determine whether we agree with CBP’s certification of the
proposed enhancements.

Prior Audit Results

From March 2007 through July 2007, we evaluated whether DHS was protecting the PII
collected, transmitted, and stored within ATS. In October 2007, we reported that CBP
had implemented robust operational and system security controls to protect the PII
contained within ATS.7 Those controls, to mitigate the privacy risks identified, were
outlined in the Privacy Impact Assessment for the Automated Targeting System, dated
November 22, 2006. CBP was effectively employing these controls in protecting
individuals’ PII. Other control measures, including those for granting access to system
data, providing users with computer security and privacy awareness training, and
deploying network protection mechanisms, contributed in protecting the PII captured and
retained in the ATS-P database. During this audit, we did not evaluate other management
or administrative-type controls that might be employed to fully protect PII data.

Certification Documentation

In December 2008, CBP requested that we review its proposed certification letter to the
U.S. House of Representatives Committee on Appropriations, Subcommittee on
Homeland Security. The letter incorrectly asserted that we had “reviewed” CBP’s
certification and “verified” that the ATS-P enhancements fully complied with applicable
laws, providing as support our October 2007 ATS audit report. CBP, however, had not
provided us with information on the ATS-P enhancements to review. Shortly thereafter,
we met with CBP and ATS officials to voice our concerns with the certification.

At the meeting, we requested supporting documentation for our review, including the
methodology used to support the enhancements, a breakdown of the specific
hardware/software to be used in the enhancements, and the specific laws that applied to
the ATS-P enhancements. In January 2009, CBP provided us with a document, entitled
“ATS-P Operational Enhancements,” but did not provide any additional information

5
  Explanatory Statement, 154 Cong. Req. H9434, H9741 (daily ed. September 24, 2008); House Committee 

Report 110-862, p. 28, 37. 

6
  Explanatory Statement, 154 Cong. Rec. at H9794; House Committee Report 110-862, p. 30, 37. 

7
  OIG-08-06, Better Administration of Automated Targeting System Controls Can Further Protect

Personally Identifiable Information (October 2007)



                                                 3

concerning the statutory requirements applicable to the enhancements. Uncertainty
remains as to what security controls CBP would implement to protect PII and which laws
are relevant to the proposed ATS-P enhancements. We asked CBP officials a second
time for additional information, and were provided with an updated certification letter,
but it did not address the issues we discussed at our December meeting or our subsequent
request for additional supporting documentation.

ATS-P Enhancements

CBP’s updated certification letter outlines the following proposed ATS-P enhancements
to improve its targeting methodology:

      •	 Develop a simulation and testing environment to achieve benefits realized by a
         similar effort deployed for CBP’s cargo targeting system.
      •	 Incorporate a refresh of existing high-availability focused technology.
      •	 Convert the current ATS-P client and server application designs to a new 

         architecture (conversion to a Microsoft .NET architecture). 

      •	 Establish a data warehouse and reporting facility to facilitate ad hoc reporting,
         queries, and other tasks requiring the use of depersonalized data elements.

In an effort to evaluate whether the proposed enhancements to ATS-P will affect CBP’s
compliance with statutory requirements for handling and securing personal data, we first
reviewed the privacy risks associated with maintaining the information in ATS as
documented in the updated PIA (dated August 3, 2007). While we identified that those
risks were addressed in the updated PIA, we could not determine whether the
enhancement of ATS-P will comply with all applicable laws, including the Privacy Act of
1974.8 At a minimum, CBP needs to identify the specific laws that apply to the ATS-P
enhancements.

In February 2009, we requested more detailed information supporting the proposed
enhancements. Our request included CBP’s security testing and evaluation plan, network
layout for both the data warehouse and the simulation and testing environment, and
whether live PII would be used in the simulation and testing environment. We also
requested what web-based controls would be implemented as part of the new architecture
and whether CBP had assessed the vulnerabilities and risks that may be inherent in the
proposed .NET architecture. Additionally, we asked whether a revised PIA had been
drafted.

Based upon our review of the information received, we continue to have concerns in
relation to the ATS-P enhancements and the risks and controls that should be considered
in association with those enhancements. For example, risks associated with the
conversion to a Microsoft .NET platform lie in its configuration. Vulnerabilities inherent
in any .NET architecture include custom errors, tracing data, debugging, cookie
management, and session timers. Default and/or poorly configured web-based

8
    5 U.S.C. § 552a


                                               4

applications can allow attackers access to critical information about the web application,
server, and services, compromising assets and information.

While we recognize that it may be necessary to upgrade the existing software platform
because the current platform may no longer be supported, CBP did not provide us with a
risk assessment or its security testing and evaluation plan to address:

•	 Vulnerabilities and risks associated with the security of PII in the proposed ATS-P
   .NET architecture.
•	 Storage and maintenance of ATS-P privacy information in the proposed data
   warehouse and reporting facility.
•	 Use of PII in the proposed simulation and testing environment.

Additionally, CBP did not provide us with documentation of any additional web-based
security controls being considered as a result of the proposed enhancements or a revised,
updated draft of the PIA. Overall, we were not provided with documentation that we
expected, to provide an additional level of assurance that CBP is fully considering the
impact of the proposed enhancements.

Current Position

Based on our review of the ATS-P Operational Enhancements Program Plan, the
August 2007 ATS PIA, our prior audit work, and supporting documentation provided, we
do not foresee that the proposed enhancements would pose significant changes to the
internal control processes CBP currently has in place to protect ATS-P privacy data.
Though we cannot determine whether the impact of the proposed enhancements is being
fully considered or verify that the proposed enhancements were properly certified, it is
our opinion that CBP will ensure that the PII contained within ATS-P is secure and that
access is limited in accordance with applicable laws. Therefore, based on our
understanding of the existing ATS-P system environment and the limited supplementary
information CBP provided, we do not expect the introduction of additional significant
risks to the personal data being collected and stored in ATS-P once the proposed
enhancements are implemented.

*********************
We conducted our review from December 2008 through February 2009. We did not
follow generally accepted government audit standards in performing this review. We
performed this nonaudit service in response to a congressional request. We are providing
our professional opinion on whether the proposed ATS-P enhancements fully comply
with all applicable laws as documented in CBP’s certification




                                             5

Appendix A
Major Contributors to This Report


                   Information Security Audits Division

                   Edward G. Coleman, Director
                   Barbara Bartuska, Audit Manager
                   Michael Horton, Information Technology Officer

                   Office of Counsel

                   Jennifer Ashworth, Assistant Counsel to the Inspector General




                                        6

Appendix B
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Acting Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Acting General Counsel
                      Executive Secretary
                      Under Secretary, Management
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Legislative Affairs
                      Chief Information Officer
                      Chief Information Security Officer
                      DHS Audit Liaison
                      CBP Commissioner
                      CBP Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                            7

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
